No. 20-1445
IN THE
Supreme Court of the United States

NATHAN RAY FOREMAN,
Petitioner,
v.
STATE OF TEXAS
Respondent.

On Petition for Writ of Certiorari
To The Texas Court of Criminal Appeals

MOTION FOR STAY

Romy B. Kaplan
Law Office of Romy B. Kaplan
Texas Bar No. 24077851
440 Louisiana, Suite 800
Houston, Texas 77002
(281) 969-3725
RomyBK@makethemproveit.com

Stanley G. Schneider*
Schneider & McKinney, P.C.
Texas Bar No. 17790500
440 Louisiana, Suite 800
Houston, Texas 77002
(713) 951-9994
stans3112@aol.com
Counsel for Petitioner
*lead Counsel

TO THE JUSTICES OF THE SUPREME COURT OF THE
UNITED STATES:
COMES NOW NATHAN RAY FOREMAN, Petitioner herein, by
and through his attorney, STANLEY G. SCHNEIDER, and moves this
Court to grant a stay of the enforcement of the affirmance of his
convictions pending disposition of his petition for writ of certiorari to the
Supreme Court of the United States and would show the Court as follows:
I. Jurisdiction
This Court has jurisdiction to grant a stay of the mandate of the
Court of Appeals for the Fourteenth Supreme Judicial District pursuant
to 23 U.S.C. 2101§ (f).
Pursuant to Supreme Court Rule 23, this Court has jurisdiction to
grant a stay of the mandate of the Court of Appeals for the Fourteenth
Supreme Judicial District which is set to issue on May 3, 2021.
On January 14, 2021, Petitioner filed an unopposed motion for stay
of mandate pending disposition of a petition for writ of certiorari with the
Court of Appeals for the Fourteenth Supreme Judicial District. Exhibit
1. On February 2, 2021, the court of appeals granted a stay of mandate
for 90 days for filing of a petition for writ of certiorari pursuant to TEX. R.
APP. P. 18.2. Exhibit 2. Petitioner filed a second motion to stay of
1

mandate after the petition for writ of certiorari was filed in this Court.
Exhibit 3. The Court of Appeals for the Fourteenth Supreme Judicial
District denied Petitioner’s second motion for stay of mandate1 pending
disposition of his petition for writ of certiorari by the Supreme Court
which is set to issue on May 3, 2021. Exhibit 4. Absent a stay by this
Court, Petitioner will be forced to surrender to custody upon issuance of
a mandate by the Court of Appeals.
II. Texas Law allows only a 90 day stay of mandate
to file a petition for writ of certiorari in the
Supreme Court of the United States in a criminal case
Petitioner has been granted a 90 day stay of mandate pending the
filing of his petition for writ of certiorai which expires on May 3, 2021.
The Court of Appeals has granted Petitioner all of the relief that he is
entitled pursuant to Texas law.
In a criminal case in Texas, a party seeking review of a decision by
the Texas Court of Criminal Appeals or a court of appeals is eligible for
a stay of the appellate mandate for a period of 90 days. Texas law does
not allow for a Texas court to stay its mandate in a criminal case for a

1

The State did not take a position in regards to the second motion for stay of mandate
after the filing of the petition for writ of certiorari.

3

period of time longer than 90 days pending disposition of a timely filed
petition for writ of certiorari in the Supreme Court of the United States.
Tex. R App Rule 18.2 reads in full:
Rule 18.2 Stay of Mandate. -A party may move to stay issuance of the mandate pending
the United States Supreme Court's disposition of a petition for writ
of certiorari. The motion must state the grounds for the petition
and the circumstances requiring the stay. The appellate court
authorized to issue the mandate may grant a stay if it finds that
the grounds are substantial and that the petitioner or others would
incur serious hardship from the mandate's issuance if the United
States Supreme Court were later to reverse the judgment.
In a criminal case, the stay will last for no more than 90
days, to permit the timely filing of a petition for writ of certiorari.
After that period and others mentioned in this rule expire, the
mandate will issue.
Tex. R. App. 18.2.(emphasis added)
The Court of Appeals granted Petitioner’s request for relief on
February 2, 2021. Petitioner has gotten all of the relief for which he is
entitled by the Texas Rules of Appellate Procedure.
III. Factual Background
Petitioner was convicted of aggravated robbery and aggravated
kidnaping in a jury trial. On appeal, he argued the trial court erred in
failing to suppress surveillance videos of the auto shop where the offense

4

occurred because the affidavit for search warrant failed to include any
evidence that there was a surveillance camera system installed at the
shop.
The en banc Fourteenth Court of Appeals reversed the conviction,
essentially holding that a magistrate cannot infer the existence of a video
surveillance system in the absence of any factual allegations in the
affidavit for search warrant existed. Foreman v. State, 561 S.W.3d 218
(Tex. App. – Houston [14th Dist.] 2018, pet. granted) (en banc). The Court
of Criminal Appeals granted the State’s petition for discretionary review
and unanimously reversed the court of appeals and affirmed the trial
court. Foreman v. State, 613 S.W.3d 160 (Tex. Crim. App. 2020). On
January 13, 2021, the Texas Court of Criminal Appeals denied
Petitioner’s motion for rehearing.
IV. The Stay of Mandate Expires Before the Deadline
Upon filing of his petition for writ of certiorari, the State waived
its right to respond. Petitioner’s petition for writ of certiorari is set for
conference on May 13, 2021.
The mandate on appeal is set to issue from the Fourteenth Court
of Appeals on May 3, 2021. Petitioner is schedule to appear in Court on
4

May 6, 2021. If the mandate issues he will have to surrender to custody.
V. Substantial Issues are Presented
The State of Texas, by not opposing the initial 90 day stay of
mandate agreed that a substantial issue of constitutional law exists in
the petition filed.
The Court of Appeals for the Fourteenth Supreme Judicial District
found that there exists substantial constitutional issues presented in this
case.
The Court of Criminal Appeals, in its opinion reversing the en
banc court of appeals and affirming the trial court acknowledged “this is
a close case.” 613 S.W.3d at 167.
Petitioner believes that a substantial constitutional issue was
presented in his petition for writ of certiorari. Petitioner believes that the
decision by the Court of Criminal Appeals conflicts with well established
precedent from the Supreme Court. In particular, Petitioner maintains
that the decision by the Court Criminal Appeals specifically conflicts with
establish Supreme Court precedent which provides that the core of the
Fourth Amendment’s warrant clause is that a magistrate may not issue
a search warrant without first finding “probable cause” that a particular

5

item will be found in a particular location. The Supreme Court has stated
repeatedly that the test is whether a reasonable reading by the
magistrate would lead to the conclusion that the four corners of the
affidavit provide a “substantial basis” for issuing the warrant.
Massachusetts v. Upton, 466 U.S. 727, 733 (1984). Probable cause exists
when, under the totality of the circumstances, there is a “fair probability”
that contraband or evidence of a crime will be found at the specified
location. Illinois v. Gates, 462 U.S. 213, 238 (1983).
The conflict existing with the United States Courts of Appeals is
evidence by the recent decision by the United States Court of Appeals for
the Fifth Circuit in United States v. Morton, No. 19-10842 (5th Cir.
January 5, 2021) (not yet reported), which directly conflicts with the
opinion from the Court of Criminal Appeals.
In Morton, a child pornography case, the Fifth Circuit addressed
whether a search warrant affidavit that presented only evidence of
personal drug possession and an officer’s generalized allegation about the
behavior of drug traffickers authorized the search of photographs stored
on a defendant’s cell phone. The affidavit in question asserted that the
affiant had probable cause to believe that photographs on Morton’s cell

6

phone contained evidence of drug crimes. The court ruled that the
affidavit failed to establish that the phone contained evidence pertinent
to drug possession. And, the court ruled that because there was no
evidence related to the content of the photographs on the phones, the
search of the photographs on Morton’s cell phone violated the Fourth
Amendment to the Constitution. The Court stated:
the affidavit leaves us with only the allegations that (1)
Morton was found with drugs so (2) it therefore follows that
the photographs on Morton’s phones will provide evidence
of Morton’s crime of drug possession. With only this bare
factual support that Morton possessed drugs, the affidavits
contain nothing to link Morton’s marijuana and ecstasy
with the photographs on his phones. The affidavits thus do
not create a “fair probability” or “substantial chance” that
evidence of the crime of drug possession will be found in the
photographs on Morton’s cellphones.
(Slip opinion p. 11).
VI. Failure to Stay the Mandate would result
in Substantial Hardship to Petitioner
Petitioner’s substantial liberty interests will be affected if this
Court does not stay the issuance of the mandate in these causes.
Petitioner was released on bond after this Court set bail at $50,000 in
each case after the reversal of his convictions by the En Banc court.
Foreman v. State, 565 S.W.3d 371 (Tex. App 14th 2018).

7

Petitioner has abided by every condition of bond imposed by the
trial court since his release from custody. The record would show that he
is not a flight risk and there has been no evidence that he committed any
violation of the law of this State or the United States.
Following the setting of bail by the Court of Appeals, Petitioner
was released from custody on bond on November 16, 2018. He appeared
in 177th Judicial District Court, Harris County, Texas on November 19,
2018. His next appearance in the 177th Judicial District Court was on
May 13, 2019. Beginning on September 6, 2019 and continuing through
March 2, 2020, the trial court required Petitioner to appear in the 177th
Judicial District Court every two weeks as a condition of his release.
Because COVID-19, on March 2, 2020, Petitioner has appeared
monthly. Since the Court of Criminal Appeals issued its opinion on
November 25, 2020, Petitioner has appeared four times in he 177th
Judicial District Court. Petitioner appeared on January 7, 2021, February
17, 2021, February 22, 2021 and March 31, 2021.
His next scheduled appearance is May 6, 2021.

8

WHEREFORE, PREMISES CONSIDERED, Petitioner prays
that this Court stay the mandates in the above cases pending final
disposition of the petition for writ of certiorari pending in this Court.

Respectfully submitted,
Romy B. Kaplan
Law Office of Romy B. Kaplan
440 Louisiana, Suite 800
Houston, Texas 77002
(281) 969-3725
RomyBK@makethemproveit.com

Stanley G. Schneider
Schneider & McKinney, P.C.
440 Louisiana, Suite 800
Houston, Texas 77002
(713) 951-9994
stans3112@aol.com
Counsel for Petitioner

9

ACCEPTED
14-15-01005-cr
FOURTEENTH COURT OF APPEALS
HOUSTON, TEXAS
1/19/2021 4:43 PM
CHRISTOPHER PRINE
CLERK

Exhibit 1

NO. 14-15-01005-CR
NO. 14-15-01006-CR
IN THE COURT OF APPEALS
FOR THE FOURTEENTH DISTRICT
HOUSTON, TEXAS
NATHAN RAY FOREMAN
VS.
THE STATE OF TEXAS

§
§
§
§
§

FILED IN
14th COURT OF APPEALS
HOUSTON, TEXAS
1/19/2021 4:43:34 PM
CHRISTOPHER A. PRINE
Clerk

APPELLANT

APPELLEE

APPEAL IN CAUSE NOS. 1374837 & 1374838
IN THE 177TH JUDICIAL DISTRICT COURT
OF HARRIS COUNTY, TEXAS

APPELLANT’S UNOPPOSED MOTION TO
STAY THE MANDATE PENDING THE
FILING OF AN APPLICATION FOR
WRIT OF CERTIORARI TO THE
UNITED STATES SUPREME COURT

STANLEY G. SCHNEIDER
SCHNEIDER & McKINNEY, P.C.
TEXAS BAR NO. 17790500
440 LOUISIANA, SUITE 800
HOUSTON, TEXAS 77002
OFFICE: (713) 951-9994
FAX: (713) 224-6008
E-MAIL: stans3112@aol.com
ATTORNEY FOR APPELLANT

TO THE HONORABLE JUSTICES OF THIS COURT:
COMES NOW NATHAN RAY FOREMAN, Appellant herein, by and
through his attorney, STANLEY G. SCHNEIDER, and files this Unopposed
Motion to Stay the Issuance of this Court’s mandate pending the filing and
disposition of an application for writ of certiorari to the United States Supreme Court
from the decision of the Texas Court of Criminal Appeals in Foreman v. State, PD1090-18, PD-1091-18 (November 25, 2020), Rehearing denied January 13, 2021
pursuant to Tex. R. App. Rule 18.2.
I.
Tex. R. App Rule 18.2 provides that this Court may stay the issuance of its
mandate pending the United States Supreme Court’s disposition of a petition for writ
of certiorari. Rule 18.2 provides in pertinent part:
A party may move to stay issuance of the mandate pending the United
States Supreme Court’s disposition of a petition for writ of certiorari.
Appellant will show that this appeal presented a significant constitutional issue
that needs to be resolved by the Supreme Court of the United States. The procedural
history of this case is unusual and reflects the magnitude of the issue presented.
II.
Appellant was indicted in cause numbers 1374837 and 1374838 with th felony

1

offenses of aggravated kidnapping and aggravated robbery with a deadly weapon.
He was convicted by a jury and sentenced by the trial court to 50 years in prison.
Prior to trial, multiple hearings were held incident to Appellant’s motion to suppress
the search of computers found at his business and the recovered surveillance video
on them. Appellant alleged that the search warrant affidavit presented to a magistrate
lacked probable cause to seize the computer because the affidavit failed to mention
any facts related to the computers or the existence of a security system that recorded
events at the business. The trial court granted the motion to suppress as to two
computers seized but denied the motion to suppress as to the computer that contained
a video of the incident that was the subject of the prosecution.
A panel of this Court affirmed the conviction by a plurality decision. Justice
Jamison, in the lead opinion, found it was possible for a magistrate to infer probable
cause from the facts in the affidavit. Justice Donovan, in a concurring opinion, found
Appellant lacked standing to contest the search of the business office. While
dissenting, Justice Christopher1 found standing and lack of probable cause. Appellant
sought en banc review in this Court. The En Banc Court determined that the affidavit
lacked any facts from which a magistrate could infer that probable cause existed for
the seizure of the computers located at Appellant’s business. Foreman v. State, 561
1

Justice Christopher is now the Chief Justice of this Court.
2

S.W.3d 218 (Tex. App. 14th 2018) (pdr granted).
The State’s petition for discretionary review was granted.
The Court of Criminal Appeals reversed the decision of this Court in an
opinion issued on November 25, 2020. Foreman v. State, 2020 Tex. Crim. App.
LEXIS 959, 2020 WL 6930819. The Court opined that based on the description of
the building where Appellant’s business was located including the existence of tinted
windows and the name of Appellant’s business on a sign, a magistrate could infer that
a video security system existed which justified the seizure of computers found at the
business. The Court of Criminal Appeals denied Appellant’s motion for rehearing
on January 13, 2021.
III.
Due to the pandemic, on March 19, 2020, the Supreme Court issued an order
extending the time to file an application for writ of certiorari to 150 days after the
decision from which review is sought. Appellant’s application for writ of certiorari
is due to be filed on or before June 12, 2021.
IV.
Appellant believes that a substantial constitutional issue will be presented to
the Supreme Court of the United States. Appellant believes that the decision by the
Court of Criminal Appeals conflicts with well established precedent from the
3

Supreme Court as well as decisions from United States Courts of Appeals.
In particular, Appellant maintains that the decision by the Court Criminal
Appeals specifically conflicts with establish Supreme Court precedent which provides
that the core of the Fourth Amendment’s warrant clause is that a magistrate may not
issue a search warrant without first finding “probable cause” that a particular item
will be found in a particular location. The Supreme Court has stated repeatedly that
the test is whether a reasonable reading by the magistrate would lead to the
conclusion that the four corners of the affidavit provide a “substantial basis” for
issuing the warrant. Massachusetts v. Upton, 466 U.S. 727, 733 (1984). Probable
cause exists when, under the totality of the circumstances, there is a “fair probability”
that contraband or evidence of a crime will be found at the specified location. Illinois
v. Gates, 462 U.S. 213, 238 (1983).
The conflict existing with the United States Courts of Appeals is evidence by
the recent decision by the United States Court of Appeals for the Fifth Circuit in
United States v. Morton, No. 19-10842 (January 5, 2021), which directly conflicts
with the opinion from the Court of Criminal Appeals.
In Morton, a child pornography case, the Fifth Circuit addressed whether a
search warrant affidavit that presented only evidence of personal drug possession and
an officer’s generalized allegation about the behavior of drug traffickers authorized
4

the search of photographs stored on a defendant’s cell phone. The affidavit in
question asserted that the affiant had probable cause to believe that photographs on
Morton’s cell phone contained evidence of drug crimes. The Court ruled that the
affidavit failed to establish that the phone contained evidence pertinent to drug
possession. And, the Court ruled that because there was no evidence related to the
content of the photographs on the phones, the search of the photographs on Morton’s
cell phone violated the Fourth Amendment to the Constitution. The Court stated:
the affidavit leaves us with only the allegations that (1) Morton was
found with drugs so (2) it therefore follows that the photographs on
Morton’s phones will provide evidence of Morton’s crime of drug
possession. With only this bare factual support that Morton possessed
drugs, the affidavits contain nothing to link Morton’s marijuana and
ecstasy with the photographs on his phones. The affidavits thus do not
create a “fair probability” or “substantial chance” that evidence of the
crime of drug possession will be found in the photographs on Morton’s
cellphones.
(Slip opinion p. 11).
The Fifth Circuit correctly applied long standing Supreme Court precedent by
stating:
The Supreme Court has observed: “[M]any situations which confront
officers in the course of executing their duties are more or less
ambiguous, [and] room must be allowed for some mistakes on their part.
But the mistakes must be those of reasonable men, acting on facts
leading sensibly to their conclusions of probability.” Brinegar v. United
States, 338 U.S. 160, 176 (1949). And further, “[m]ere affirmance of
belief or suspicion is not enough.” Nathanson v. United States, 290 U.S.
5

41, 47 (1933). The facts here lead to the sensible conclusion that Morton
was a consumer of drugs; the facts do not lead to a sensible conclusion
that Morton was a drug dealer. Under these facts, reasonably welltrained officers would have been aware that searching the digital images
on Morton’s phone—allegedly for drug trafficking-related
evidence—was unsupported by probable cause, despite the magistrate’s
approval.
(Slip opinion p. 13).
As recognized by this En Banc Court and by the Court of Criminal Appeals in
this case, there are no actual facts contained in the affidavit that would support a
probable cause determination regarding the seizure of computers. The affidavit’s
probable cause statement does not mention computers or surveillance equipment
within its factual basis.
The question becomes the reasonableness of inferences drawn from the bland
description of a building containing a business and the business’ name on a sign. The
Court of Criminal Appeals reversing this Court decision relied on inferences drawn
from inferences drawn from the affidavit’s description of the premises and the name
of a business on sign to infer that a computer and surveillance equipment existed and
supports a probable cause determination. In reversing this Court decision, the Court
of Criminal Appeals did not identify any facts that actually support a probable cause
determination.

6

V.
Appellant’s substantial liberty interests will be affected if this Court does not
stay the issuance of the mandate in these causes. Appellant was released on bond
after this Court set bail after the reversal of his convictions by the En Banc court.
Foreman v. State, 565 S.W.3d 371 (Tex. App 14th 2018).
Appellant submits that he has abided by every condition of bond imposed by
the trial since his release from custody. The record would show that he is not a flight
risk and there has been no evidence that he committed any violation of the law of this
State or the United States.
Following the setting of bail by this Court, Appellant was released on bond on
November 16, 2018. He appeared in 177th Judicial District Court on November 19,
2018. His next appearance in the 177th Judicial District Court was on May 13, 2019.
Beginning on September 6, 2019 and continuing through March 2, 2020, the trial
court required Appellant to appear in the 177th Judicial District Court every two
weeks as a condition of his release. Because COVID-19, on March 2, 2020,
Appellant appeared monthly. Since the Court of Criminal Appeals issued its opinion
on November 25, 2020, Appellant has twice appeared in the 177th Judicial District
Court. His next court date is February 17, 2021.

7

VI.
The undersigned attorney has consulted with Assistant Harris County District
Attorney Clint Morgan concerning this motion. Mr. Morgan has indicated that given
the issues presented he is unopposed to this Court granting this motion to stay this
Court’s mandate.
PRAYER
WHEREFORE, PREMISES CONSIDERED, Appellant prays that this
Court stay the issuance of its mandate pursuant to Tex. R. App. Rule 18.2 pending
disposition of the application for writ of certiorari due to be filed on or before June
12, 2021.
Respectfully submitted,
SCHNEIDER & MCKINNEY, P.C.
/s/ Stanley G. Schneider
Stanley G. Schneider
Texas Bar No. 17790500
440 Louisiana, Suite 800
Houston, Texas 77002
Office: (713) 951-9994
Fax: (713) 224-6008
E-mail: stans3112@aol.com
ATTORNEY FOR APPELLANT
NATHAN RAY FOREMAN

8

CERTIFICATE OF SERVICE
This is to certify that a true and correct copy of the attached and foregoing
Appellant’s Unopposed Motion to Stay the Mandate Pending the Filing of an
Application for Writ of Certiorari to the United States Supreme Court has been
mailed, emailed and/or hand delivered on the office of the Harris County District
Attorney’s Office, 500 Jefferson, Suite 600, Houston, Texas 77002, on this 19th day
of January 2021, to the following:

Clinton Morgan
Assistant Criminal District Attorney
morgan_clinton@dao.hctx.net

/s/ Stanley G. Schneider
Stanley G. Schneider

9

Automated Certificate of eService
This automated certificate of service was created by the efiling system.
The filer served this document via email generated by the efiling system
on the date and to the persons listed below. The rules governing
certificates of service have not changed. Filers must still provide a
certificate of service that complies with all applicable rules.
Belen Vara on behalf of Stanley Schneider
Bar No. 17790500
stanschneider.legalassistant@gmail.com
Envelope ID: 49836502
Status as of 1/19/2021 4:48 PM CST
Associated Case Party: Nathan Foreman
Name

BarNumber

Email

TimestampSubmitted

Status

Stanley G.Schneider

stans3112@aol.com

1/19/2021 4:43:34 PM

SENT

Belen Vara

stanschneider.legalassistant@gmail.com

1/19/2021 4:43:34 PM

SENT

Associated Case Party: Harris County District Attorney's Office
Name
Clint Morgan

BarNumber

Email

TimestampSubmitted

Status

morgan_clinton@dao.hctx.net

1/19/2021 4:43:34 PM

SENT

Exhibit 2

FILE COPY

Justices

Chief Justice

KEN WISE
KEVIN JEWELL
FRANCES BOURLIOT
JERRY ZIMMERER
CHARLES A. SPAIN
MEAGAN HASSAN
MARGARET "MEG" POISSANT
RANDY WILSON

TRACY CHRISTOPHER
Clerk

CHRISTOPHER A. PRINE
PHONE 713-274-2800

Fourteenth Court of Appeals
301 Fannin, Suite 245
Houston, Texas 77002

Tuesday, February 2, 2021
Stanley G. Schneider
Schneider & McKinney, P.C.
440 Louisiana
Suite 800
Houston, TX 77002
* DELIVERED VIA E-MAIL *
RE:

Clinton Morgan
500 Jefferson
Suite 600
Houston, TX 77002
* DELIVERED VIA E-MAIL *

Court of Appeals Number: 14-15-01005-CR
Trial Court Case Number: 1374837

Style: Nathan Ray Foreman v. The State of Texas
Please be advised that on this date the Court GRANTED APPELLANT’S
motion to stay issuance of the mandate for 90 days in the above cause.
Panel Consists of Chief Justice Christopher and Justices Jewell and Poissant.
Sincerely,
/s/ Christopher A. Prine, Clerk

cc:

ACCEPTED
14-15-01005-cr
FOURTEENTH COURT OF APPEALS
HOUSTON, TEXAS
4/14/2021 4:50 PM
CHRISTOPHER PRINE
CLERK

Exhibit 3

NO. 14-15-01005-CR
NO. 14-15-01006-CR
IN THE COURT OF APPEALS
FOR THE FOURTEENTH DISTRICT
HOUSTON, TEXAS
NATHAN RAY FOREMAN
VS.
THE STATE OF TEXAS

§
§
§
§
§

APPELLANT

APPELLEE

APPEAL IN CAUSE NOS. 1374837 & 1374838
IN THE 177TH JUDICIAL DISTRICT COURT
OF HARRIS COUNTY, TEXAS

APPELLANT’S SECOND MOTION TO STAY THE MANDATE
PENDING THE DISPOSITION OF THE PETITION FOR
WRIT OF CERTIORARI TO THE UNITED STATES
SUPREME COURT FILED ON APRIL 13, 2021

STANLEY G. SCHNEIDER
SCHNEIDER & McKINNEY, P.C.
TEXAS BAR NO. 17790500
440 LOUISIANA, SUITE 800
HOUSTON, TEXAS 77002
OFFICE: (713) 951-9994
FAX: (713) 224-6008
E-MAIL: STANS3112@AOL.COM
ATTORNEY FOR APPELLANT

TO THE HONORABLE JUSTICES OF THIS COURT:
COMES NOW NATHAN RAY FOREMAN, Appellant herein, by and
through his attorney, STANLEY G. SCHNEIDER, and files this Second Motion to
Stay the Issuance of this Court’s mandate pending disposition of the petition for writ
of certiorari to the United States Supreme Court filed on April 13, 2021, from the
decision of the Texas Court of Criminal Appeals in Foreman v. State, PD-1090-18,
PD-1091-18 (November 25, 2020), Rehearing denied January 13, 2021 pursuant to
Tex. R. App. Rule 18.2.
I.
Tex. R. App Rule 18.2 provides that this Court may stay the issuance of its
mandate pending the United States Supreme Court’s disposition of a petition for writ
of certiorari. Rule 18.2 provides in pertinent part:
A party may move to stay issuance of the mandate pending the United
States Supreme Court’s disposition of a petition for writ of certiorari.
Rule 18,2 also provide that in a criminal case, the stay will last no longer than
90 days to permit the timely filing of a petition for writ of certiorari. The rule is silent
as to a stay in criminal case pending the disposition of a petition for writ of certiorari.
The rule states that after that period and other periods mentioned in the rule, the
mandate shall issue. The plain language of the rule indicates that once a petition for

1

writ of certiorari is filed and substantial issues are presented, this Court can grant a
stay pending disposition of the petition.
II.
On February 2, 2021 this Court granted a stay of the mandate for 90 days
pending the filing of the petition for writ of certiorari to the United States Supreme
Court.
III.
Attached are records pertaining to the e-filing of the petition for writ of
certiorari on April 13, 2021. The receipt and tracking of the delivery of the petition
to the Supreme Court of the United States.
IV.
The State did not oppose the granting of a stay of the mandate of this Court
pending the filing of the petition for writ of certiorari to the Supreme Court of the
United States.
V.
Appellant will show that this appeal presented a significant constitutional issue
that needs to be resolved by the Supreme Court of the United States. The procedural
history of this case is unusual and reflects the magnitude of the issue presented.
Appellant was indicted in cause numbers 1374837 and 1374838 with the felony
2

offenses of aggravated kidnapping and aggravated robbery with a deadly weapon.
He was convicted by a jury and sentenced by the trial court to 50 years in prison.
Prior to trial, multiple hearings were held incident to Appellant’s motion to suppress
the search of computers found at his business and the recovered surveillance video
on them. Appellant alleged that the search warrant affidavit presented to a magistrate
lacked probable cause to seize the computer because the affidavit failed to mention
any facts related to the computers or the existence of a security system that recorded
events at the business. The trial court granted the motion to suppress as to two
computers seized but denied the motion to suppress as to the computer that contained
a video of the incident that was the subject of the prosecution.
A panel of this Court affirmed the conviction by a plurality decision. Justice
Jamison, in the lead opinion, found it was possible for a magistrate to infer probable
cause from the facts in the affidavit. Justice Donovan, in a concurring opinion, found
Appellant lacked standing to contest the search of the business office. While
dissenting, Justice Christopher1 found standing and lack of probable cause. Appellant
sought en banc review in this Court. The En Banc Court determined that the affidavit
lacked any facts from which a magistrate could infer that probable cause existed for
the seizure of the computers located at Appellant’s business. Foreman v. State, 561
1

Justice Christopher is now the Chief Justice of this Court.
3

S.W.3d 218 (Tex. App. 14th 2018) (pdr granted).
The State’s petition for discretionary review was granted.
The Court of Criminal Appeals reversed the decision of this Court in an
opinion issued on November 25, 2020. Foreman v. State, 2020 Tex. Crim. App.
LEXIS 959, 2020 WL 6930819. The Court opined that based on the description of
the building where Appellant’s business was located including the existence of tinted
windows, bay doors and the name of Appellant’s business on a sign, a magistrate
could infer that a video security system existed which justified the seizure of
computers found at the business. The Court of Criminal Appeals denied Appellant’s
Motion for Rehearing on January 13, 2021.
VI.
Appellant believes that a substantial constitutional issue will be presented to
the Supreme Court of the United States. Appellant believes that the decision by the
Court of Criminal Appeals conflicts with well established precedent from the
Supreme Court. In particular, Appellant maintains that the decision by the Court
Criminal Appeals specifically conflicts with establish Supreme Court precedent
which provides that the core of the Fourth Amendment’s warrant clause is that a
magistrate may not issue a search warrant without first finding “probable cause” that
a particular item will be found in a particular location. The Supreme Court has stated
4

repeatedly that the test is whether a reasonable reading by the magistrate would lead
to the conclusion that the four corners of the affidavit provide a “substantial basis”
for issuing the warrant. Massachusetts v. Upton, 466 U.S. 727, 733 (1984). Probable
cause exists when, under the totality of the circumstances, there is a “fair probability”
that contraband or evidence of a crime will be found at the specified location. Illinois
v. Gates, 462 U.S. 213, 238 (1983).
The conflict existing with the United States Courts of Appeals is evidence by
the recent decision by the United States Court of Appeals for the Fifth Circuit in
United States v. Morton, No. 19-10842 (January 5, 2021), which directly conflicts
with the opinion from the Court of Criminal Appeals.
In Morton, a child pornography case, the Fifth Circuit addressed whether a
search warrant affidavit that presented only evidence of personal drug possession and
an officer’s generalized allegation about the behavior of drug traffickers authorized
the search of photographs stored on a defendant’s cell phone. The affidavit in
question asserted that the affiant had probable cause to believe that photographs on
Morton’s cell phone contained evidence of drug crimes. The Court ruled that the
affidavit failed to establish that the phone contained evidence pertinent to drug
possession. And, the Court ruled that because there was no evidence related to the
content of the photographs on the phones, the search of the photographs on Morton’s
5

cell phone violated the Fourth Amendment to the Constitution. The Court stated:
the affidavit leaves us with only the allegations that (1) Morton was
found with drugs so (2) it therefore follows that the photographs on
Morton’s phones will provide evidence of Morton’s crime of drug
possession. With only this bare factual support that Morton possessed
drugs, the affidavits contain nothing to link Morton’s marijuana and
ecstasy with the photographs on his phones. The affidavits thus do not
create a “fair probability” or “substantial chance” that evidence of the
crime of drug possession will be found in the photographs on Morton’s
cellphones.
(Slip opinion p. 11).
The Fifth Circuit correctly applied long standing Supreme Court precedent by
stating:
The Supreme Court has observed: “[M]any situations which confront
officers in the course of executing their duties are more or less
ambiguous, [and] room must be allowed for some mistakes on their part.
But the mistakes must be those of reasonable men, acting on facts
leading sensibly to their conclusions of probability.” Brinegar v. United
States, 338 U.S. 160, 176 (1949). And further, “[m]ere affirmance of
belief or suspicion is not enough.” Nathanson v. United States, 290 U.S.
41, 47 (1933). The facts here lead to the sensible conclusion that Morton
was a consumer of drugs; the facts do not lead to a sensible conclusion
that Morton was a drug dealer. Under these facts, reasonably welltrained officers would have been aware that searching the digital images
on Morton’s phone—allegedly for drug trafficking-related
evidence—was unsupported by probable cause, despite the magistrate’s
approval.
(Slip opinion p. 13).

6

As recognized by this En Banc Court and by the Court of Criminal Appeals in
this case, there are no actual facts contained in the affidavit that would support a
probable cause determination regarding the seizure of computers. The affidavit’s
probable cause statement does not mention computers or surveillance equipment
within its factual basis.
The question becomes the reasonableness of inferences drawn from the bland
description of a building containing a business and the business’ name on a sign. The
Court of Criminal Appeals reversing this Court decision relied on inferences drawn
from inferences drawn from the affidavit’s description of the premises and the name
of a business on sign to infer that a computer and surveillance equipment existed and
supports a probable cause determination. In reversing this Court decision, the Court
of Criminal Appeals did not identify any facts that actually support a probable cause
determination.
VII.
Appellant’s substantial liberty interests will be affected if this Court does not
stay the issuance of the mandate in these causes. Appellant was released on bond
after this Court set bail after the reversal of his convictions by the En Banc court.
Foreman v. State, 565 S.W.3d 371 (Tex. App 14th 2018).

7

Appellant submits that he has abided by every condition of bond imposed by
the trial since his release from custody. The record would show that he is not a flight
risk and there has been no evidence that he committed any violation of the law of this
State or the United States.
Following the setting of bail by this Court, Appellant was released on bond on
November 16, 2018. He appeared in 177th Judicial District Court on November 19,
2018. His next appearance in the 177th Judicial District Court was on May 13, 2019.
Beginning on September 6, 2019 and continuing through March 2, 2020, the trial
court required Appellant to appear in the 177th Judicial District Court every two
weeks as a condition of his release. Because COVID-19, on March 2, 2020,
Appellant appeared monthly. Since the Court of Criminal Appeals issued its opinion
on November 25, 2020, Appellant has appeared four times in the 177th Judicial
District Court. Appellant appeared on January 7, 2021, February 17, 2021, February
22, 2021 and March 31, 2021. He is scheduled to appear on May 6, 2021.
PRAYER
WHEREFORE, PREMISES CONSIDERED, Appellant prays that this
Court stay the issuance of its mandate pursuant to Tex. R. App. Rule 18.2 pending
disposition of the petition for writ of certiorari due to be filed on or before June 12,
2021.
8

Respectfully submitted,
SCHNEIDER & MCKINNEY, P.C.
/s/ Stanley G. Schneider
Stanley G. Schneider
Texas Bar No. 17790500
440 Louisiana, Suite 800
Houston, Texas 77002
Office: (713) 951-9994
Fax: (713) 224-6008
E-mail: stans3112@aol.com
ATTORNEY FOR APPELLANT
NATHAN RAY FOREMAN

CERTIFICATE OF SERVICE
This is to certify that a true and correct copy of the attached and foregoing
Appellant’s Second Motion to Stay the Mandate Pending the Disposition of the
Petition for Writ of Certiorari to the United States Supreme Court has been mailed,
emailed and/or hand delivered on the office of the Harris County District Attorney’s
Office, 500 Jefferson, Suite 600, Houston, Texas 77002, on this 14th day of April
2021, to the following:
Clinton Morgan
Assistant Criminal District Attorney
morgan_clinton@dao.hctx.net
/s/ Stanley G. Schneider
Stanley G. Schneider
9

4/13/2021

- Electronic Filing System External

EXHIBIT

A:
Welcome Stanley G. Schneider I Sign Out

Summary
* Your Electronic Filing was submitted on 4/13/2021 5:31 PM.

Petition for a Writ of Certiorari- State

Payment: $300.00
Payment Type: Check

Payment#

Last Updated Date:

Petitioner:
Foreman, Nathan
Respondent:
State of Texas
State/Territory.
Texas
Is this a Capital Case?
No

Attorney
Stanley G. Schneider(Counsel of Record)
Party Name:
Nathan Foreman
Firm:
Schneider & McKinney, P.C.
Address:
https:l/file.supremecourt.gov/Request/RequestSummaryGet/175627

1/2

4/13/2021

- Electronic Filing System External

440 Louisiana, Suite 800, Houston, TX 77002
Phone#:
7139519994
Email:
stans3112@aol.com
Notifications

romybk@makethemproveit.com
stanschneider.legalassistant@gmail.com
morgan_clinton@dao.hctx.net
edward. marshall@oag. texas. gov
laura.haney@oag.texas.gov

Documents

Petition - 40576 pdf Schneider br.pdf
Virus Scan Completed

Appendix - 40576 pdf Schneider app.pdf
Virus Scan Completed

Certificate Word Count -40576 Schneider Certificate of Compliance.pdf
Virus Scan Completed

Proof of Service -40576 Schneider Affidavit of Service.pdf
Virus Scan Completed

Supreme Court of the United States

https ://file.supremecourt.gov/Request/RequestSummaryGet/175627

2/2

4/13/2021

Your Electronic Filing record has been submitted.

From: efilingsupport@supremecourt.gov,

To: stans3112@aol.com,
Subject: Your Electronic Filing record has been submitted.

EXHIBIT

e,

Date: Tue, Apr 13, 2021 4:32 pm

Your Petition for a Writ of Certiorari has been submitted. It will be reviewed once the hard copy is received. If
you are not expecting this email, please contact the Supreme Court Electronic Filing Support Group at
eFilingSupport@supremecourt.gov.

https://mail.aol.com/webmail-std/en-us/PrintMessage

1/1

Automated Certificate of eService
This automated certificate of service was created by the efiling system.
The filer served this document via email generated by the efiling system
on the date and to the persons listed below. The rules governing
certificates of service have not changed. Filers must still provide a
certificate of service that complies with all applicable rules.
Belen Vara on behalf of Stanley Schneider
Bar No. 17790500
stanschneider.legalassistant@gmail.com
Envelope ID: 52470809
Status as of 4/14/2021 4:52 PM CST
Associated Case Party: Nathan Foreman
Name

BarNumber

Email

TimestampSubmitted

Status

Stanley G.Schneider

stans3112@aol.com

4/14/2021 4:50:21 PM

SENT

Belen Vara

stanschneider.legalassistant@gmail.com

4/14/2021 4:50:21 PM

SENT

Associated Case Party: Harris County District Attorney's Office
Name
Clint Morgan

BarNumber

Email

TimestampSubmitted

Status

morgan_clinton@dao.hctx.net

4/14/2021 4:50:21 PM

SENT

Exhibit 4

FILE COPY

Justices
Chief Justice

KEN WISE
KEVIN JEWELL
FRANCES BOURLIOT
JERRY ZIMMERER
CHARLES A. SPAIN
MEAGAN HASSAN
MARGARET "MEG" POISSANT
RANDY WILSON

TRACY CHRISTOPHER
Clerk

CHRISTOPHER A. PRINE
PHONE 713-274-2800

Fourteenth Court of Appeals
301 Fannin, Suite 245
Houston, Texas 77002

Tuesday, April 20, 2021
Clinton Morgan
500 Jefferson
Suite 600
Houston, TX 77002
* DELIVERED VIA E-MAIL *

Stanley G. Schneider
Schneider & McKinney, P.C.
440 Louisiana
Suite 800
Houston, TX 77002
* DELIVERED VIA E-MAIL *

Eric Kugler
Assistant District Attorney
1201 Franklin
Suite 600
Houston, TX 77002-1923
* DELIVERED VIA E-MAIL *
RE:

Court of Appeals Number: 14-15-01006-CR
Trial Court Case Number: 1374838

Style: Nathan Ray Foreman v. The State of Texas
Please be advised that on this date the Court DENIED APPELLANT’S motion
to stay issuance of the mandate in the above cause.
Panel Consists of Chief Justice and Justices Jewell and Poissant.
Sincerely,
/s/ Christopher A. Prine, Clerk

cc:

